FAA NEEDS TO IMPROVE RISK ASSESSMENT
PROCESSES FOR ITS AIR TRANSPORTATION
          OVERSIGHT SYSTEM
       Federal Aviation Administration
        Report Number: AV-2011-026
       Date Issued: December 16, 2010
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Needs To Improve Risk                                              Date:    December 16, 2010
           Assessment Processes for Its Air Transportation
           Oversight System
           Federal Aviation Administration
           Report Number AV-2011-026

  From:    Jeffrey B. Guzzetti                                                         Reply to
                                                                                       Attn. of:   JA-10
           Assistant Inspector General
             for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           The Federal Aviation Administration (FAA) uses its Air Transportation Oversight
           System (ATOS) to conduct surveillance of nearly 100 airlines. These airlines
           transport more than 90 percent of U.S. airline passenger and cargo traffic. We
           have consistently reported that ATOS is conceptually sound because it is data-
           driven and intended to target inspector resources to the highest risk areas.
           However, in 2002 and 2005, we reported that FAA needed to strengthen national
           oversight of ATOS to hold field managers more accountable for consistently
           implementing effective oversight practices. 1 In 2008, safety lapses at Southwest
           Airlines exposed serious weaknesses in FAA’s risk-based oversight process at that
           airline.

           After hearings on the safety issues at Southwest, the Senate Committee on
           Science, Commerce, and Transportation and the House Committee on
           Transportation and Infrastructure requested that we review FAA’s oversight of the
           U.S. airline industry. As a result of the weaknesses identified in our 2008
           testimony, 2 the Committees asked us to determine if similar oversight weaknesses
           existed elsewhere in the system. Accordingly, our audit objectives were to
           determine (1) whether FAA has completed timely ATOS inspections of air
           carriers’ policies and procedures for their most critical maintenance systems;

           1
               OIG Report Number AV-2002-088, “Air Transportation Oversight System,” April 8, 2002.
               OIG Report Number AV-2005-062, “FAA Safety Oversight of an Air Carrier Industry in Transition,” June 3, 2005.
               OIG reports are available on our website: www.oig.dot.gov.
           2
               OIG Testimony Number CC-2008-046, “Actions Needed To Strengthen FAA’s Safety Oversight and Use of
               Partnership Programs,” April 3, 2008.
                                                                                                                     2


(2) how effective ATOS performance inspections have been in testing and
validating that these critical maintenance systems are working properly; and
(3) how well FAA implemented ATOS for the remaining Part 121 3 air carriers and
what, if any, oversight challenges FAA inspection offices face. We conducted the
audit from May 2008 through July 2010 in accordance with government auditing
standards prescribed by the Comptroller General of the United States.

RESULTS IN BRIEF
FAA has worked to continuously improve its risk-based air carrier oversight
system since introducing it in 1998. However, we identified three areas where
FAA could improve its management and oversight of ATOS:

    • FAA did not perform timely ATOS inspections of policies and procedures (i.e.,
      design assessments) for air carriers’ most critical maintenance systems. At all
      eight major air carriers we reviewed, 4 inspectors did not complete these
      inspections 5 within FAA’s required 5-year interval—some had not been
      completed for nearly 8 years. For example, in three inspection offices, more
      than 5 years had lapsed between inspections of the Airworthiness Directive
      (AD) Management program, even though inspectors noted in ATOS that it had
      increased risk. Further, overdue inspections continued even after FAA reduced
      the number of maintenance programs that inspectors were required to review.
      Inspectors cited confusion with interpreting FAA guidance as one reason for
      not completing timely inspections. We also found that some inspections were
      overdue because FAA does not monitor inspections that have been scheduled
      but not yet assigned to an inspector.

    • FAA inspectors did not effectively assess whether critical maintenance systems
      were performing as intended (i.e., performance assessments) due to three
      process weaknesses. First, like the design assessments, FAA did not complete
      these inspections in a timely manner. For example, at the 8 major air carrier
      inspection offices we reviewed, between fiscal year (FY) 2005 and FY 2009,
      inspectors did not complete 340 inspections on time. Second, ATOS design
      flaws allow lower risk maintenance programs to be inspected before higher
      risk programs. For example, at one FAA inspection office, the risk level for
      the air carrier’s maintenance manual system had nearly doubled within 1 year;
      yet, it received lower inspection priority than the carrier’s cargo handling
      program, which showed minimal risk. Third, inspectors were not using all

3
    This refers to large, commercial operators regulated under 14 CFR Part 121, Operating Requirements: Domestic,
    Flag, and Supplemental Operations. These carriers operate larger aircraft with primarily scheduled flights.
4
    Alaska Airlines, American Airlines, Continental Airlines, Delta Air Lines, Northwest Airlines, Southwest Airlines,
    United Airlines, and US Airways. For this review, we visited each of these FAA air carrier offices except Southwest
    Airlines; instead, we conducted a review of inspection data to supplement our report.
5
    The terms “assessment” and “inspection” are used interchangeably in this report.
                                                                                                                      3


      available safety data to assess risk. For example, inspectors’ risk assessments
      did not include analyses of voluntary disclosure data (i.e., maintenance errors
      that air carriers self-report) or changes that occurred in the airline industry.
      These data are readily available and, if analyzed regularly, could be valuable
      risk indicators to monitor air carrier maintenance programs.

    • Finally, FAA completed transitioning the remaining Part 121 air carrier
      inspection offices to ATOS at the end of 2007. However, at the time of our
      review, effective implementation of ATOS was hindered due to inspectors'
      frustrations with adapting ATOS principles to smaller carrier operations, citing
      problems with broad or redundant inspection checklist questions, air carrier
      staffing limitations, and insufficient data to support the ATOS “data-driven”
      approach. Our analysis shows that a contributing problem may be long gaps—
      3 years or more—between when inspectors received initial system safety
      training and when they began actually using ATOS. While these inspection
      offices have not reached the end of their first 5-year inspection interval, these
      issues warrant attention to avoid overdue design assessments in the future.

Weaknesses in FAA’s current ATOS approach hinder its ability to effectively
target inspector resources to the areas of greatest need. We are making
recommendations to FAA to improve its data, training, and risk assessment
processes for ATOS.

BACKGROUND
In October 1998, FAA launched its data-driven, risk-based Air Transportation
Oversight System at the 10 Part 121 air carriers 6 that transported the most
passengers. Today, FAA inspectors use ATOS to conduct surveillance of air
carrier maintenance and operations at 94 Part 121 U.S. air carriers. Under the
ATOS concept, FAA inspectors apply system safety principles and use data
analysis to focus their inspections on areas that pose the greatest risk and identify
potential problems before accidents occur. ATOS also permits inspectors to shift
the focus of their inspections in response to changing conditions within air
carriers’ operations. ATOS has three primary functions: assessments of air carrier
system design, assessments of air carrier system performance, and risk
management. All three of these functions require decisions by FAA inspectors
and managers; therefore, ATOS is considered a decision support system.

    • Design assessments are the most important ATOS function because safety is
      the outcome of a properly designed system. Inspectors evaluate air carriers’

6
    The initial group of ATOS air carriers included: Alaska Airlines, America West Airlines, American Airlines,
    Continental Airlines, Delta Air Lines, Northwest Airlines, Southwest Airlines, Trans World Airlines, United Airlines
    and US Airways.
                                                                                                                    4


      policies and procedures (typically through reviews of air carrier manuals) to
      determine if their operating systems comply with safety regulations and
      standards. Design assessments are required every 5 years.

    • Performance assessments confirm that air carriers’ operating systems produce
      intended results. Inspectors determine whether air carriers are following their
      FAA-approved procedures and that those procedures and operating systems are
      working as intended. Performance evaluations are conducted at prescribed
      intervals depending on the criticality level assigned to each air carrier program.
      Programs considered to be high-criticality 7 are inspected every 6 months,
      medium criticality every 12 months, and low-criticality programs every
      36 months.

    • Risk management is the ATOS function to identify and control unsafe
      situations. Inspectors examine air carrier processes dealing with hazards and
      associated risks that are subject to regulatory control (e.g., enforcement actions
      and rulemaking). FAA uses these analyses as a basis to target resources
      towards the most at-risk programs. Risk is determined by analyzing
      consequences relative to likelihood and severity and the combined effects are
      assessed to determine priorities when multiple risks are identified.

FAA HAS NOT COMPLETED TIMELY ATOS INSPECTIONS OF AIR
CARRIERS’ POLICIES AND PROCEDURES FOR KEY
MAINTENANCE SYSTEMS
Overdue ATOS inspections have been a longstanding challenge for FAA in
implementing its risk-based oversight system at major U.S. air carriers. Over an
8-year period, inspectors at all 8 major air carrier inspection offices in our review
did not complete 207 key inspections of carriers’ maintenance policies and
procedures on time. This is despite changes FAA has made to ATOS over the last
10 years that actually decreased the number of maintenance programs inspectors
were required to review and increased the intervals between inspections.
Confusion over when design assessments should be completed was one reason
cited by multiple inspectors for missing inspection intervals. Additionally, FAA
Headquarters is not using available inspection status data to hold these offices
accountable for overdue ATOS inspections. In our view, tracking all overdue
inspections and using available data would assist FAA in achieving more timely
and targeted ATOS inspections.


7
    FAA defines high-criticality maintenance programs as those programs where the likelihood of a system failure could
    lead to an unsafe condition. Conversely, medium- and low-criticality maintenance programs are those less likely to
    produce an unsafe condition if they fail.
                                                                                                                                  5


FAA Inspection Offices for Major Air Carriers Missed ATOS Design
Assessments
From FY 2002 to FY 2009, all eight FAA major air carrier inspection offices we
reviewed did not complete systemic ATOS reviews of air carrier maintenance
policies and procedures (i.e., design assessments) on time. As shown in figure 1,
four of the eight FAA inspection offices completed less than 50 percent of their
inspection workload at the required interval; the US Airways inspection office
completed slightly less than one-quarter of its workload on time. 8 As a result, any
risks in the air carrier systems would remain “unknown” until inspections are
completed.

             Figure 1. Percentage of Design Assessments Not Completed Within
                                    Prescribed Intervals

                                            76%        68%        55%        60%       48%        45%        23%         17%
                                       60
        No. of Maintenance Programs*




                                       50        54                    55                    54
                                                             53                                        53           52       53
                                                                                  48
                                       40
                                            41
                                       30               36
                                                                  30         29
                                       20                                               26
                                                                                                  24

                                       10
                                                                                                             12
                                                                                                                         9
                                        0




                                                                    FAA Inspection Offices



                                                      No. Not Completed                           No. of Programs

     Source: OIG analysis of FAA data, FY 2002 – FY 2009
    *Due to the unique operations of each air carrier, not all air carriers have the same type or number of maintenance
     programs; therefore, not all will apply.

As shown in table 1 below, the most commonly missed inspections of
maintenance programs included reviews of air carrier manuals and training
requirements for Required Inspection Items (RII). 9




8
     FAA office managers stated they had delayed completing these inspections because the air carrier was merging with
     America West Airlines, and they believed it would be more efficient to wait and review the maintenance programs
     once the merger was completed.
9
     RII are maintenance tasks that, if not properly performed or if done with improper parts or materials, could result in a
     failure, malfunction, or defect that would endanger the continued safe flight and landing of aircraft.
                                                                                                              6


           Table 1. Common Overdue Inspections at Eight FAA Offices
                                                                                       No. of Offices with
          Maintenance Program Description                                           Overdue Inspections for
                                                                                   this Maintenance Program
 Required Inspection Item Training Requirements                                                 7
 Availability (Manuals)                                                                         6
 Manual Currency                                                                                6
 Supplemental Operations Manual Requirements                                                    6
 Chief Inspector *                                                                              6
 Director of Maintenance *                                                                      6
 Parts/Material Control/Suspected Unapproved Parts                                              6
 Engineering/Major Repairs and Alterations                                                      4
 Airworthiness Directive Management                                                             3
 Source: OIG analysis of FAA data, FY 2002 – FY 2009
 *These inspections are used to validate the qualifications of the individuals holding these positions.

Two of the maintenance programs shown in table 1—Airworthiness Directive
Management and Engineering/Major Repairs and Alterations—are considered
high-criticality maintenance programs. Inspectors for five inspection offices
identified increased risk levels (i.e., meaning vulnerabilities in these programs
could negatively impact safety) in these programs during the time when they
should have been inspected; however, at least 5 to 6 years had lapsed between
inspections.

Principal inspectors stated that they missed inspection intervals due to confusion
over FAA’s guidance on when they should complete ATOS design assessments.
According to these inspectors, the guidance only “suggested” a 5-year inspection
cycle for this type of assessment. While this may have been the case when FAA
issued guidance in 2001, it reissued the guidance in July 2007, in part, to clarify
inspection requirements. The revised guidance explicitly stated that these
assessments must be completed every 5 years. Our review showed that even after
FAA clarified inspection interval requirements, inspections were still not
completed on time.

FAA principal inspectors for Alaska Airlines informed us that because their office
was transitioning to a newer version of ATOS in 2008, FAA Headquarters had
permitted them to “reset the clock” on inspections nearing the 5-year time
requirement. At that time, 10 design assessments were nearing their due dates and
would be considered late under existing guidelines, if not completed. However,
inspectors were later told to “hurry up and finish” any outstanding assessments.
These inspectors stated that they believed FAA reversed its position due to the
scrutiny that overdue ATOS inspections had received during congressional
hearings in April 2008. These hearings likely served as a trigger to inspectors to
complete overdue inspections. For example, after the hearings, the 8 major air
carriers we reviewed completed 188 of 215 inspections (87 percent) that were
overdue during FY 2002 through FY 2009.
                                                                                                                        7


Smaller Air Carrier Inspection Offices Also Face Overdue ATOS
Design Assessments
In December 2007, FAA completed transitioning the remaining Part 121
inspection offices to ATOS oversight. Because FAA guidance requires design
assessments to be completed every 5 years, the 12 smaller inspection offices in our
review still have time to complete these assessments. However, at the time of our
review, only 2 of the 12 FAA inspection offices had completed 50 percent or more
of their inspections.

Inspectors for small air carrier offices face challenges in completing their assigned
ATOS design assessments. This is due, in part, to the fewer number of inspectors
assigned to oversee these carriers and the distance from their offices to air carrier
headquarters and main maintenance bases. Inspectors assigned to small air carrier
offices need more time to complete inspections than their larger air carrier
counterparts because, while they usually have fewer aircraft to inspect and fewer
inspectors on staff, they have nearly the same number of maintenance programs as
large carriers. Table 2 shows the relationship of numbers of inspectors to the
number of maintenance programs and size of air carrier fleet.

      Table 2. Relationship of the Number of FAA Inspectors to Maintenance
                         Programs and Aircraft Fleet Size
                                                                                            10
                                     No. of Inspectors         No. of Maint. Programs              No. of Aircraft
 Small Air Carriers                         3 to 9                       42 to 51                      1 to 83
 Major Air Carriers                        15 to 32                      48 to 55                    117 to 750
Source: OIG analysis of FAA data

Also, we identified four inspection offices during our review that were either not
located near the carriers’ headquarters, main maintenance base, or even in the
same country where the carrier conducts most of its operations. These inspectors
expressed concerns about their inability to have timely access to observe aircraft
maintenance operations. For example, FAA inspectors for Executive Airlines
must travel from their office in Miami, Florida, to San Juan, Puerto Rico—where
the aircraft are based—to perform inspections of the air carrier’s headquarters and
maintenance operations. Conversely, inspectors for major air carriers are often
located near air carrier headquarters and major hubs around the country, allowing
them easy access to review air carrier maintenance records and observe aircraft
maintenance operations.




10
     By March 2010, FAA completed action to eliminate or consolidate 27 air carrier maintenance inspection programs;
     therefore, the number of authorized programs is proportionately less now for each air carrier than during our review.
                                                                                                                       8


FAA Headquarters Does Not Track Overdue and Unassigned ATOS
Inspections
FAA recently implemented a quarterly report to monitor field office inspections,
but the report does not track overdue inspections that remain unassigned to an
inspector or provide trend analyses of offices with habitually late inspections.
Since July 2008, the Flight Standards Certification and Surveillance Division
Manager has been sending these quarterly inspection status reports—commonly
referred to as the Quarterly ADI 11 Completion Report—to regional managers.
FAA initiated this process in response to our June 2008 report 12 in which we
recommended that FAA implement a process to monitor field office inspections
and alert local, regional, and Headquarters management of overdue inspections.
Although it appears that FAA Headquarters has developed this report to monitor
field inspections, the report does not include a cumulative data roll-up that could
be useful in identifying problem offices where inspections are habitually late. As
a result, Headquarters officials do not readily know if uncompleted inspections—
whether assigned or unassigned—in that quarter would be scheduled and
completed in the following quarters.

Inspections are automatically scheduled in ATOS based on intervals established
within the system, and office managers assign inspectors to complete them. We
examined FAA’s quarterly reports from June 2008 through June 2009 and
identified 237 scheduled inspections 13 that were left unassigned 14 and
uncompleted. However, FAA did not use the Quarterly ADI Completion Report
to track any of these to ensure they would be rescheduled and completed. For
example, our review of ATOS data disclosed 11 inspections that were at least
90 days past due but not rescheduled. In other instances, inspection offices did
reschedule unassigned inspections; however, as illustrated in table 3 below,
projected completion dates for these inspections will be up to 4 years past the
original due date. Inspectors had previously identified four of these programs as
having increased levels of risk, meaning vulnerabilities in these programs could
negatively impact safety.




11
     ADI: Action, Determination, and Implementation is a process in ATOS designed to permit a principal inspector or
     management official to collect and analyze inspection data in order to make decisions to mitigate risks found during
     inspections of air carriers’ operating programs.
12
     OIG Report Number AV-2008-057, “Review of FAA’s Oversight of Airlines and Use of Regulatory Partnership
     Programs,” June 30, 2008.
13
     These are Element Performance Inspections designed to assess whether critical maintenance systems are performing
     as intended.
14
     Unassigned inspections are scheduled in the ATOS automated system, but managers have not committed inspector
     resources to complete them.
                                                                                                                  9


                        Table 3. Unassigned and Overdue Inspections
                               With Projected Completion Dates
              Inspection Program                    Original Due          Revised Due Date            Time Past
                                                         Date                                            Due
 Engineering/Major                                 Dec. 31, 2008             Dec. 31, 2012             4 years
 Repairs and Alterations*
 Line Stations                                     Sept. 30, 2008           Sept. 30, 2012             4 years
 Other Personnel with Operational                  Sept. 30, 2008           Dec. 31, 2011              3 years,
 Control*                                                                                             3 months
 Training of Flight Attendants*                    Dec. 31, 2008            June 30, 2010            18 months
 Major Repairs and Alterations                     Sept. 30, 2008           Mar. 31, 2010            18 months
 Records*
 Deicing Program                                   Dec. 31, 2008             Mar. 31, 2010           15 months
Source: FAA ATOS repository, June 30, 2008 – June 30, 2009
*Inspection programs that were identified with elevated risk.

Unassigned inspections pose a significant problem for FAA because managers
cited a lack of inspector resources needed to complete them. Our analysis of
ATOS data showed that a lack of inspector staffing was cited in 165 of the
237 (70 percent) unassigned inspections over a 1-year period.

FAA Headquarters officials stated that not all scheduled ATOS inspections will be
completed at the required interval and that, in their opinion, it is not practical or
desirable to complete all inspections just for the sake of completing inspections.
Therefore, Headquarters officials do not hold local inspection offices accountable
for completing unassigned inspections because that would impede the time
inspectors need to perform quality inspections for areas that pose greater risk.
While we agree that higher-risk air carrier programs should be inspected ahead of
lower-risk programs, inspectors still did not complete some of the unassigned
inspections where they had found increased risk levels. All air carrier programs
should be inspected at regular intervals to mitigate risk before system failure
occurs.

FAA Inspections Were Late Despite Changes to ATOS That
Decreased Inspectors’ Workload
FAA has not met its ATOS inspection intervals despite cutting the number of
maintenance programs requiring inspection nearly in half—from 59 to 31—over
the last 10 years. According to FAA, these changes were intended, in part, to
reduce redundancy in the system and more efficiently target inspector resources.

In FY 1999, ATOS required local inspection offices to complete a minimum of
151 maintenance inspections annually; now, they only have to complete
37 inspections (as shown in figure 2 below). 15 Over time, this resulted in a
75-percent reduction in workload for FAA inspectors. It also resulted in air

15
     These numbers may be less based on the number of applicable maintenance programs at an air carrier.
                                                                                 10


carriers receiving fewer inspections during a time when the air carrier industry was
facing record financial losses and making unprecedented changes to their
operations (e.g., retiring and storing aircraft, making personnel cuts, and closing
maintenance facilities) to regain profitability. An air carrier program, such as
Airworthiness Directive Management, which had received a minimum of one
quarterly inspection when ATOS was first implemented, now receives only two
inspections annually, primarily as a result of FAA’s revisions to ATOS, not
because of reduced risks.

      Figure 2. Reduction in the Minimum Number of Required Element
                Performance Inspections — FY 1999 - FY 2010




Source: FAA ATOS data
* Number rounded.

While fewer maintenance programs—and therefore fewer inspections—will
reduce the likelihood of missed inspections, FAA’s changes to ATOS may not
necessarily result in more effective risk assessment processes.

Specifically, FAA did not base its decision to reduce, eliminate, or consolidate
maintenance inspections on sound analytical support:

  • In 2003, FAA convened a workgroup to review the risk assessment process in
    ATOS. The workgroup reviewed the criticality level (i.e., the likelihood that a
    system failure could lead to an unsafe condition) assigned to each air carrier
    maintenance program and recommended that 15 of the 25 high-criticality
    programs be downgraded to medium- and low-criticality levels. However, the
                                                                                                                11


       workgroup did not consider whether past inspection reports revealed any
       problems that would reverse their decision to make these changes.

     • In March 2010, FAA again revised ATOS. In this revision, FAA eliminated or
       consolidated 27 maintenance programs into the remaining 31 programs, in part,
       to remove redundancy within ATOS. Similar to 2003, FAA did not analyze
       historical ATOS data to support its decision to make these changes. Instead,
       FAA relied on concerns inspectors voiced during their visits to local inspection
       offices (e.g., ATOS was difficult to use).

FAA views its latest decision to reduce the number of maintenance programs as a
means of producing a more efficient oversight system by eliminating overlapping
inspection areas. While this action has merit, it also seemed to focus on
maintenance programs that had habitually late inspections, not just those with
overlapping areas. For example, four 16 of the most commonly missed inspections
(as previously shown in table 1) were eliminated or combined with other
inspections based on FAA’s revision to ATOS. As a result, these maintenance
programs no longer exist as separate programs.

ATOS INSPECTIONS WERE NOT EFFECTIVE AT TESTING AND
VALIDATING THAT CRITICAL MAINTENANCE SYSTEMS WERE
WORKING PROPERLY
FAA inspectors did not complete ATOS performance assessments on time at all
8 major and 12 smaller air carrier inspection offices we reviewed despite having
fewer maintenance programs to inspect. Performance assessments are intended to
confirm that air carrier systems operate as required by Federal Aviation
Regulations.      Yet, over a 5-year period, inspectors did not complete
576 inspections at the required intervals. Additionally, ATOS was envisioned to
be a risk-based oversight system, but we found the risk assessment process—the
basis for prioritizing inspections for timely completion—does not give priority to
maintenance programs where FAA inspectors found increased risk. Also,
inspectors we interviewed were not analyzing voluntary disclosure data (i.e.,
maintenance errors that air carriers self-report) or industry events that could
impact a carrier’s performance and stability. Voluntary disclosure data and
changes in the airline industry are important indicators of whether air carriers are
properly maintaining their aircraft during times of economic downturn.




16
     Required Inspection Item (RII) Training Requirements, Availability (Manuals), Chief Inspector, and Supplemental
     Operations Manual Requirements.
                                                                                                                                 12


FAA Inspectors for Major Air Carriers Missed Timelines for
Conducting ATOS Performance Assessments
FAA inspectors are required to conduct ATOS performance assessments of air
carriers’ policies and procedures at specified time intervals. Performance
assessments have different inspection intervals than design assessments. For
example, depending on the criticality (i.e., the likelihood that a system failure
could lead to an unsafe condition) of a maintenance program, performance
assessments are conducted at 6, 12, or 36-month intervals.

Between FY 2005 and FY 2009, inspectors at 8 major air carrier inspection offices
did not complete 340 performance assessments within FAA’s required time
intervals to test whether air carriers’ policies and procedures were operating
effectively. Of the 340 missed inspections, 180 were high-criticality maintenance
program inspections; the remaining 160 were medium-criticality inspections. As
shown in figure 3, the Southwest Airlines inspection office missed the most (57)
inspections at the required time intervals while the Delta Air Lines inspection
office missed the least (26).

                                     Figure 3. Number of Performance Assessments Not Completed at
                                         Required Intervals for Major Carriers — FY 2005 - FY 2009
                                      60

                                           25
  No. of Inspections Not Completed




                                      50
                                                      26
                                                                   25           28
                                      40                                                    21
                                                                                                         13
                                      30
                                           32
                                                                                                         26         7       15
                                      20              25
                                                                   23                       23
                                                                                20                                 20
                                      10
                                                                                                                            11

                                       0




                                                                        Air Carrier Inspection Offices


                                                High Criticality Programs                     Medium Criticality Programs

 Source: OIG analysis of FAA data, FY 2005 – FY 2009




Examples of high-criticality inspections missed most often at major air carriers
included the following:
                                                                                                                   13


     • 30 Continuing Analysis and Surveillance System (CASS) inspections
     • 28 Aircraft Reliability Program inspections
     • 21 AD Management inspections

All air carrier maintenance programs are important, but these three programs are
especially key because they are designed to: (1) monitor and analyze the
performance of air carrier inspection and maintenance programs, (2) monitor
failure rates of aircraft components, and (3) alert air carriers to potentially unsafe
manufacturing defects in aircraft parts and components. Yet, our work has
continually found that FAA has problems completing inspections of these
programs on time. For example, between 2005 and 2007, FAA inspectors for
American Airlines did not inspect the carrier’s CASS and Aircraft Reliability
programs. 17 Also, between 2006 and 2007, inspectors for Southwest Airlines did
not inspect the AD Management program for almost 18 months. 18 On average, the
number of days in which inspections were completed beyond their original due
dates was 54 days for high-criticality and 96 days for medium-criticality programs.

Small Air Carrier Inspection Offices Also Missed Timelines for
Conducting ATOS Performance Assessments
Twelve small air carrier FAA inspection offices we visited also did not meet
inspection baseline intervals for 236 inspections. 19 These offices are required to
complete performance assessments at the same time intervals as the major air
carrier inspection offices. Of the 236 overdue inspections, 116 were high-
criticality maintenance program inspections and the remaining 120 were medium-
criticality inspections. As shown in figure 4 below, 7 of the 12 inspection offices
did not complete 20 or more inspections within the required intervals.




17
     OIG Report Number AV-2010-042, “FAA’s Oversight of American Airlines’ Maintenance Programs,”
     February 16, 2010.
18
     OIG Report Number AV-2008-057, “Review of FAA’s Safety Oversight of Airlines and Use of Regulatory
     Partnership Programs,” June 30, 2008.
19
     Because these offices did not transition to ATOS at the same time, our analysis was limited to reviewing available
     data in the ATOS data repository from the time of each office’s transition through the end of FY 2009.
                                                                                                                                   14


Figure 4. Number of Performance Assessments Not Completed at Required
             Intervals for Small Carriers — FY 2007 - FY 2009

                                      30


                                      25   11   18
                                                        12
   No. of Inspections Not Completed

                                                                 11
                                      20                                    13   10
                                                                                        11
                                                                                                 9      10
                                                                                                                 9
                                      15
                                           15
                                                        13       13
                                      10                                         12
                                                                            10                  10
                                                                                         9               9       9         4
                                                8
                                       5
                                                                                                                           5   2
                                                                                                                               3
                                       0




                                                                      Air Carrier Inspection Offices


                                                High Criticality Programs                    Medium Criticality Programs

Source: OIG analysis of FAA data, FY 2007 – FY 2009
* Transitioned to ATOS in FY 2008

Examples of high-criticality inspections missed most often at small carriers
included the following:

 • 20 Engineering/Major Repairs and Alterations Program inspections
 • 15 Maintenance Control Program inspections
 • 15 CASS inspections
 • 12 Aircraft Airworthiness inspections

Because these are high-criticality programs, FAA guidance requires that they be
inspected every 6 months. Two local inspection offices that transitioned to ATOS
at the end of FY 2007 did not complete timely inspections of the Aircraft
Airworthiness and Engineering/Major Repairs and Alterations programs. When
these two programs were finally inspected—12 and 18 months later,
respectively—inspectors identified deficiencies. For example, at one air carrier,
inspectors discovered that the carrier had not completed an audit of the
maintenance records department to determine whether existing processes were
effectively identifying problems and providing corrective actions. Until these
overdue inspections were completed, the risks in these programs could only be
described as “unknown” because inspections were not performed at the required
intervals to monitor any changes.
                                                                                                                       15


ATOS Design Limitations Hinder Timely and Targeted Inspections
The ATOS system design prompts inspectors to place priority on programs that
are not necessarily high risk. 20 This is because ATOS disproportionately weights
maintenance programs designated as high-criticality over lower-criticality
maintenance programs even though inspectors have identified deficiencies in the
lower-criticality programs. As a result, lower-criticality maintenance programs
with increased risk may not receive priority for inspection at required intervals.

ATOS is designed to assign high-criticality programs three times the baseline risk
value of low-criticality programs. As a result, these programs will normally
receive first inspection priority. For example, if an air carrier’s Airworthiness
Directive program is operating normally, it will be assigned a baseline risk value
of 84 while an air carrier’s maintenance manual program, with no risk, will
receive a baseline risk value of 28. As a low-criticality program, an air carrier’s
General Maintenance Manual system, by itself, will not result in an unsafe
condition on an aircraft. However, as the foundation for an effective aircraft
maintenance program, without accurate manuals, maintenance errors can occur.
We agree that high-criticality programs warrant vigilant FAA oversight, but they
may not always present the highest risk to safe air carrier operations if inspectors
have not identified any hazards in the programs.

Table 4 below shows how considering increased risk along with program
criticality would impact inspections at one air carrier. As shown in the table, all
but 1 of this carrier’s top 10 maintenance programs listed in the column “Increased
Risk Score” are high-criticality programs; therefore, they will receive priority for
inspection even though 3 of them show no increased risk above their baseline
score (84). However, the maintenance manual program nearly doubled in risk, but
ranks only 35th in priority.




20
     Maintenance programs can be designated as high-criticality (likely to produce unsafe results if the program fails), but
     may not be considered “high risk” if FAA inspectors have not found problems with the program.
                                                                                                                       16


     Table 4. Example of an Air Carrier’s Maintenance Programs Prioritized
                       According to Highest Risk Score
                                          Criticality           Baseline                Increased            Priority
    Maintenance Program                  Designation           Risk Score              Risk Score *          Ranking
  Aircraft Airworthiness                       H                     84                    141                    1
  AD Management                                H                     84                    123                    2
  CASS                                         H                     84                    117                    3
  Line Stations                                H                     84                    102                    4
  Maintenance Control                          H                     84                     96                    5
  Outsource Organization                       H                     84                     93                    6
  Weight & Balance                             M                     56                     86                    7
  RII**                                        H                     84                     84                    8
  Engineering / Major Repairs &
  Alterations**                                H                     84                     84                    9
  Cargo Handling Equipment, &
  Appliances**                                 H                     84                     84                   10
  General Maintenance Manual                    L                    28                     53                   35
Source: FAA ATOS data repository
*Increased risk scores are derived from inspectors’ analyses of air carrier data and inspection reports, which indicate that
 the individual maintenance program is experiencing problems.
**These programs have no increased risk.

 More emphasis on prioritizing programs with increased risk, regardless of the
 criticality designation, would allow FAA to better target inspector resources.
 Table 5 shows an example where calculating the percentage of increased risk
 should ensure that low-criticality maintenance programs with higher risks will
 receive the same consideration for inspector resources as high-criticality programs.

    Table 5. Example of One Air Carrier’s Maintenance Programs Prioritized
                 According to Percentage of Increased Risk
                                                                                                % of
                                        Baseline             Increased         Initial       Increased         New
  Maintenance               Criticality   Risk                  Risk          Priority         Risk to        Priority
  Program                  Designation   Score                 Score          Ranking         Baseline        Ranking
  General
  Maintenance
  Manual                      L                   28              53              35             89%               1
  Aircraft
  Airworthiness              H                    84              141              1             68%               2
  Weight & Balance           M                    56               86              7             54%               3
  AD Management              H                    84              123              2             46%               4
  CASS                       H                    84              117              3             39%               5
  Maintenance
  Program                    M                    56               70             11             25%               6
  Line Stations              H                    84              102              4             21%               7
  Maintenance
  Facility/Main
  Maintenance Base           M                    56              66              12             18%               8
  MIS Reports                 L                   28              33              36             18%               9
  Service Difficulty
  Reports                     L                   28              33              38             18%              10
 Source: FAA ATOS data repository
                                                                                                             17


An internal FAA report issued in November 2008 21 stated that surveillance
planning is mainly targeted to high-criticality programs and not enough
inspections are directed toward low-criticality programs. FAA’s report concluded
that the ATOS system would miss low-criticality programs with high probability
of risk and FAA should review how inspection offices target their surveillance
planning to determine if ATOS should be modified to increase the frequency of
inspections for low-criticality maintenance programs. We agree with this
assessment, and FAA officials stated that the Agency is working to address this
issue.

FAA Inspectors Do Not Analyze All Available Data Sources or
Relevant Industry Events To Ensure Accurate Risk Assessments
Inspectors’ risk assessment plans do not consider all available safety data; rather,
they place more emphasis on the results of their surveillance activities and
enforcement actions and do not fully analyze or trend data from the Safety
Performance Analysis System (SPAS) database (e.g., hotline complaints and
Service Difficulty Reports) or the Voluntary Disclosure Reporting Program
(VDRP). 22 Disclosure data, which are not typically obtained through normal
surveillance means, could serve as a valuable source of information to assist
inspectors in monitoring the safety compliance and trends of their assigned
carriers. For example, repetitive disclosures of mechanic errors at an air carrier
should indicate to FAA that problems still exist in the carrier’s maintenance
training program.

None of the FAA inspection offices we visited performed ongoing trend analyses
of voluntary disclosure reports to identify potential repeat violations. Disclosure
reports we reviewed indicated inspectors were more concerned about whether the
number of disclosures had increased rather than trending the data to look for
repetitive submissions. Trending air carrier self-disclosure data is important to
ensure that corrective actions are working and prevent abuse of the system. Such
trend analyses would also benefit the risk assessment process because repetitive
self-disclosures indicate that an air carrier is unable to correct identified
maintenance deficiencies and would trigger inspectors to adjust the risk level of
that maintenance program so that it receives an adequate level of inspection.

FAA recently took steps to ensure inspectors considered VDRP data as part of
their normal surveillance planning by directing inspectors to review national trend
analyses of VDRP data and identify potential safety risks. This is a good first step
to ensure that self-disclosure data will receive heightened consideration.


21
     FAA internal report dated November 2008. Availability determined by 5 USC §552.
22
     The VDRP provides air carriers with the opportunity to notify (self-disclose) FAA of known safety violations
     without fear of legal enforcement action.
                                                                                   18


However, FAA will need to closely monitor whether inspectors consistently apply
the results of their reviews when developing their risk assessment plans.

In addition, inspectors do not fully consider events occurring in the air carrier
industry that could impact maintenance programs within their assigned carrier.
For example, while Delta Air Lines was merging with Northwest Airlines in 2008,
FAA inspectors for both offices did not document potential concerns in ATOS to
acknowledge these events. According to FAA guidance, identification of risks in
areas such as “Merger or Takeover,” “Reduction in Workforce,” changes in
“Financial Conditions,” or “Labor-Management Relations” is likely to impact the
carriers’ ability to effectively manage their workforce. However, FAA inspectors’
risk assessments of Delta and Northwest showed little to no increase for potential
risk in these areas during the merger.

We also found that when inspectors did document risks, their risk assessment
plans frequently lacked substantive supporting statements to justify why inspectors
raised or lowered risk levels for each of the maintenance programs. ATOS
guidance recommends that inspectors annotate reasons for adjusting risk levels;
however, we examined risk assessments for eight major air carrier inspection
offices and found inconsistencies. For example, inspectors at the Continental
Airlines inspection office raised the level of risk for the Aircraft Airworthiness
maintenance program based on vague justifications (e.g., “substantial number of
human factors performance errors” and “large number of self disclosures”) that
did not identify the specific safety concerns that existed at the air carrier at the
time of the risk assessment. Additionally, inspectors at the Southwest Airlines
inspection office initially identified increased levels of risk for 10 ATOS
maintenance programs but did not document reasons to support their actions.
However, more than 5 months later, inspectors realized that they overstated the
risk; yet, these programs received higher priority to be inspected first.

FAA stated that it is aware of the inconsistencies in how its field inspection offices
assess risk and of the need to reevaluate whether all ATOS risk indicators should
have equal weighting for each maintenance program. While this seems to be a
practical approach to ensure that ATOS is truly a risk-based system, it could
reduce the flexibility of ATOS to adapt to ever-changing conditions, especially
since all air carriers do not operate in the same environment.

FAA INSPECTORS FOR SMALLER PART 121 AIR CARRIERS DID
NOT EFFECTIVELY TRANSITION TO ATOS
FAA completed transitioning all of its Part 121 inspection offices to ATOS at the
end of 2007; however, some inspectors for smaller air carriers expressed concerns
with adapting ATOS to smaller carrier operations. Our work shows one reason for
                                                                                                               19


this difficulty may be gaps between when inspectors received initial system safety
training and their actual use of ATOS. Additionally, our discussions with
supervisory inspectors indicate that they do not fully support or accept the ATOS
concept due, in part, to the inspection checklist design. Our prior reviews and
ongoing work, as well as an FAA internal review, have identified lack of
management support for these initiatives as an obstacle to successful ATOS
implementation.

Inspectors for Smaller Air Carriers Cited Frustration and Confusion
with ATOS
Managers and inspectors at 12 FAA inspection offices for smaller air carriers that
recently transitioned to ATOS cited concerns with the system’s design such as
inspection checklist questions, air carrier staffing limitations, confusion over how
to record inspection findings, and insufficient data to effectively support the
ATOS “data-driven” approach.

     • Inspector Frustration With ATOS Inspection Checklist Questions and
       Procedures: At the time of our review, managers and inspectors we spoke
       with felt that ATOS questions were hard to understand and redundant. These
       inspectors also stated concerns that a system safety approach to air carrier
       oversight that required more time spent in front of a computer compromised
       the time needed to conduct actual hands-on inspections. FAA inspectors have
       voiced this complaint to us since we first began reviewing ATOS
       implementation in 2000. In 2009, FAA implemented changes to ATOS data
       collection tools, which simplified and removed redundant inspection questions.
       FAA also commissioned a Time Allocation Study, 23 which showed that
       inspectors actually spent less time using computer automation (less than one-
       third of an inspector’s workweek was devoted to computer usage) than what
       was previously reported by inspectors.

     • Small Air Carrier Staffing Limitations: Inspectors stated that ATOS was
       originally designed for oversight of larger air carriers that have access to fully
       staffed engineering and quality assurance departments. These carriers are
       better equipped to handle needed changes and respond to FAA inspection
       findings in a more timely fashion. Conversely, smaller air carriers typically
       have less staff—in some cases, one or two persons to handle an entire
       engineering program—to address required maintenance program changes.
       Therefore, smaller air carriers require more time to correct deficiencies
       identified during FAA inspections. As a result, air carriers could be operating
       unsafe aircraft or air carrier employees could be following deficient manual
       procedures while management is trying to make corrections to their programs.

23
     This report was prepared for FAA by Booz Allen Hamilton in August 2009; availability determined by 5 USC §552.
                                                                                      20


     • Inspector Confusion Over How To Record Inspection Findings: Several
       inspectors expressed concerns that the process for recording inspection
       findings in ATOS is confusing and difficult to adapt to smaller carrier
       operations. For example, an air carrier providing seaplane passenger service
       between islands in the Caribbean is more prone to experiencing airframe
       corrosion due to long exposure to salt water than aircraft operating in other
       environments. This is unique to this air carrier, and inspectors stated there is
       no place in ATOS to accurately record these findings because the ATOS
       checklist questions are too broad. In another example, an air carrier providing
       service to its sports franchise customers frequently flies into airports where the
       carrier has no established company maintenance, contract facilities, or gate
       personnel. As a result, the air carrier’s mechanics routinely fly to the
       destination and provide on-call maintenance services, as needed. FAA
       inspectors expressed frustration with their ability to schedule and perform
       comprehensive inspections of this carrier due to the “on-demand” nature of the
       carrier’s operations. Also, because these carriers operate in non-traditional
       environments, inspectors found it difficult to associate their inspection findings
       to structured ATOS checklists.

     • Data Limitations: Inspectors did not know if ATOS was actually working for
       the carriers they oversee. Inspectors overseeing air carriers that operate only
       one or two aircraft are not seeing the benefits of a risk-based oversight system
       because there are not enough data to fuel the “data-driven” nature of ATOS.

The uniqueness of small air carrier operations raises questions about whether
inspectors can adjust ATOS to the size and complexity of air carrier operations.
Addressing these questions will be particularly important if FAA plans to expand
ATOS as its oversight system. According to inspectors, FAA Headquarters was
aware of the ATOS issues with these air carrier operations, and some of them were
told that a scaled-down version of ATOS—or “ATOS Lite” as the inspectors
referred to it—was in the works to address such issues. However, FAA contends
that ATOS was originally designed to be scalable to any size air carrier operation.

Frustration With Training and Lack of Management Support Hinder
Acceptance of ATOS at Smaller Inspection Offices
Inspectors expressed frustration with the gap between the time in which they
received system safety training and when they actually began using ATOS to
oversee their assigned air carrier. We surveyed 63 airworthiness inspectors 24 at
the 12 small inspection offices we reviewed and found that they received initial
system safety training, but in some cases, this training occurred as much as 6 years
before they actually began performing inspections. For those inspectors who had

24
     Airworthiness includes both maintenance and avionics specialties.
                                                                                                                21


a gap of 3 or more years, nearly 70 percent reported being unable to recall and
apply system safety concepts to answer ATOS inspection questions.
Understanding and applying system safety principles is key to ensure that air
carriers’ maintenance programs work effectively and that ATOS contains accurate
data.

In 2008, FAA commissioned an internal report to gauge the effectiveness of the
transition from existing oversight systems to a newer ATOS version 1.2. 25 The
report’s findings reiterate our concerns. For example, specific issues regarding
FAA’s transition disclosed in the report included the following:

     • Inspectors have a partial understanding of system safety theory and principles.
     • Inspectors do not understand ATOS inspection checklist questions.
     • Inspectors who transitioned to ATOS were generally more negative about the
       newer version of ATOS (1.2).
     • Inspectors perceived that the new version does not adequately account for
       either air carrier size or scope of operations when planning for surveillance
       activities.

This report also highlighted inconsistent ATOS data reviews across local
inspection offices and regions. More importantly, the report found that training
for the new ATOS version was poorly received, which negatively affected the
inspectors’ acceptance of it. This complaint was exacerbated by the fact that
FAA’s study found that the lack of management buy-in and supervisory support
for new initiatives were impeding ATOS acceptance and success. We also
reported this issue with management support in our 2002 audit of the initial ATOS
implementation.

The internal report also recommended the following actions to FAA:

     • Enhance the workforce knowledge of system safety principles and their
       understanding of the ATOS inspection checklist questions.
     • Evaluate the design of the new ATOS version as it relates to scalability across
       all Part 121 air carriers.
     • Develop resources for use by field office managers and supervisors that
       support their understanding of effective ways to demonstrate ATOS buy-in.
     • Develop supplemental training for inspectors using the new ATOS version.
     • Conduct additional research to                        further       understand        ATOS         version
       1.2 implementation at other offices.

25
     This report was prepared for FAA by Booz Allen Hamilton in July 2008; availability determined by 5 USC §552.
                                                                                22


FAA has taken initial steps to address some of these recommendations. For
example, as of April 2010, FAA has developed and implemented ATOS
interactive training courses for managers and inspectors to emphasize the
relationship between system safety principles and ATOS. More work remains to
fully address the recommendations.

CONCLUSION
The United States has traditionally operated the safest air carrier system in the
world, and risk-based oversight of air carriers is critical to ensure that the
American public continues to have access to safe and reliable air transportation.
FAA has faced many challenges in implementing ATOS since its inception,
including the expansion of ATOS to all Part 121 air carriers. While FAA is
making progress in addressing these challenges, a number of critical actions, such
as ensuring accountability for overdue inspections and accurate and consistent risk
assessment, are needed to ensure ATOS operates as originally intended. Without
these improvements, FAA lessens its ability to effectively oversee the National
Airspace System.

RECOMMENDATIONS
We recommend that FAA:

 1. Redesign the Quarterly ADI Completion report to include cumulative roll-up
    data from previous quarters and conduct trend analyses that could be used to
    hold regional and local inspection offices accountable for scheduling
    uncompleted inspections.

 2. Develop procedures to document justification for significant changes to
    ATOS (i.e., planned changes to alter the number of data collection tools or
    prescribed inspection time intervals).

 3. Redesign the current risk assessment process within ATOS so that it
    appropriately prioritizes maintenance programs with the greatest percentage
    of increased risk (regardless of criticality level) for inspector resources.

 4. Provide training to inspectors to help them more accurately interpret data
    from all available sources (i.e., self-disclosure data, ATOS Data Packages,
    events occurring in the aviation industry) and apply the results more
    consistently when planning risk assessments.

 5. Evaluate ATOS to determine if it is designed to accurately record inspection
    findings unique to smaller air carrier operations.
                                                                                23


 6. Evaluate whether ATOS is scalable across all Part 121 air carriers.

 7. Expedite enhancement of ATOS training methods (as identified in its 2008
    internal report) to assist inspectors in understanding how to use ATOS data
    collection tools and increase their proficiency in using ATOS.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We discussed the results of our review with FAA’s Deputy Director of Flight
Standards Field Operations on July 13, 2010, and provided FAA with our draft
report on September 23, 2010. We received the Agency’s formal response on
October 20, 2010, which is included in its entirety as the appendix to this report.
FAA concurred with four of our seven recommendations and partially concurred
with three. FAA agreed to implement actions we recommended to evaluate
whether ATOS is scalable to all carriers; therefore, we are closing
recommendation 6.        FAA generally agreed with the remaining six
recommendations, but did not propose actions that we consider sufficient to
address our concerns. Therefore, we consider them as open and unresolved and
request that FAA provide further information, as discussed below.

Recommendation 1: FAA stated that it had modified ATOS with a ghost icon to
indicate that an inspection was not completed. However, this modification still
does not provide Headquarters with a process that could be used to hold
local inspection offices accountable for scheduling uncompleted inspections.
Therefore, we request that FAA clarify its response or provide an alternative
course of action that would meet the intent of this recommendation.

Recommendation 2: FAA stated that it has developed a Quality Management
System (QMS) process to support its decision to revise ATOS Decision Collection
Tools (DCT). However, during our audit, FAA officials never discussed
developing a QMS process or how it would be used to support decisions to revise
ATOS. Therefore, we request that FAA clarify how the QMS process will be used
to document future changes to ATOS.

Recommendation 3: FAA stated that an ATOS process already exists that permits
principal inspectors to manually adjust inspection priorities and that our
recommendation to redesign the current risk assessment process is unwarranted.
However, this process is neither automated nor objective. Further, it does not use
the percentage of increased risk to determine when a maintenance program should
be inspected. Therefore, we request that FAA reconsider its response or provide
an alternative course of action to satisfy the intent of this recommendation.
                                                                                24


Recommendation 4 and 7: FAA stated that it revised two ATOS training courses
designed to provide newly assigned Part 121 inspectors and managers with in-
depth coverage of risk assessment processes. We found, however, that existing
inspectors and managers were not using all available data sources when analyzing
risk. Therefore, we request that FAA clarify its planned action to provide training
to existing inspectors and managers.

Recommendation 5: FAA stated that it completed revisions to its ATOS DCTs in
July 2010 after our audit work was completed. Because these revisions to ATOS
are still relatively new, we request that FAA provide us with additional details on
how it will determine whether these changes have been effective in improving the
accuracy of recording inspection findings unique to smaller air carrier operations.

ACTIONS REQUIRED
We consider all recommendations—except for recommendation 6—as unresolved
and open, pending additional information from FAA. In accordance with
Department of Transportation 8000.1C, we request that FAA clarify its response
on actions it intends to take to fully address all recommendations along with
estimated target completion dates. We would appreciate receiving this response
within 30 calendar days.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please contact me at
(202) 366-0500 or Tina B. Nysted, Program Director, at (404) 562-3770.

                                        #

cc:   FAA Associate Administrator for Aviation Safety
      Director of Flight Standards
      Anthony Williams, AAE-001
      Martin Gertel, M-100
                                                                                    25



EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
Our audit objectives were to determine (1) whether FAA has completed timely
ATOS inspections of air carriers’ policies and procedures for their most critical
maintenance systems; (2) how effective ATOS performance inspections have been
in testing and validating that these critical maintenance systems are working
properly; and (3) how well FAA implemented ATOS for the remaining Part 121
air carriers and what, if any, oversight challenges FAA inspection offices face.
We conducted this audit between May 2008 and July 2010 in accordance with
generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

We selected 20 FAA inspection offices for our review. Eight offices were selected
because they have been under ATOS since FY 1999 and would provide the
greatest amount of data for analysis. Also, these carriers and their affiliates are, in
part, responsible for transporting more than 90 percent of passengers and air cargo
in the United States. The remaining 12 inspection offices were chosen because
they were new to using ATOS in the last 3 years, and some of these carriers
participate in multiple code-sharing agreements with major air carriers. At the
time of our review, there were 104 FAA Part 121 air carrier inspection offices that
transitioned to ATOS. Exhibit B lists the entities we contacted or visited during
our review.

We evaluated ATOS oversight and implementation at the national, regional, and
local levels. To accomplish this, we interviewed officials from FAA Flight
Standards Service to obtain information regarding ATOS implementation to
determine the effectiveness of FAA’s national oversight of the ATOS program.
We also contacted Division Managers for all eight FAA Regional Flight Standards
Offices (Alaska, Central, Eastern, Great Lakes, Northwest Mountain, Southern,
Southwest, and Western-Pacific) to obtain their input as to the usefulness of FAA
Headquarters’ Quarterly ADI Completion Reports.

We interviewed FAA Managers, Principal Airworthiness Inspectors, Aviation
Safety Inspectors, and Operations Research Analysts to determine what processes,
procedures, guidance, and data they use to conduct ATOS inspections and analyze
data. Our review also included analyses of ATOS design and performance
assessments obtained from FAA’s Safety Performance Analysis System and the
ATOS data repository for FY 2002 through FY 2009 to determine the timeliness
of completing inspections. For our review, we evaluated whether inspectors
completed design assessments within the 5-year interval and performance


Exhibit A. Objecti ves, Scope, and Methodology
                                                                               26


assessments within the 6, 12, or 36-month interval requirements, as prescribed by
FAA. Assessments that were not completed within the required intervals were
considered overdue.

For this analysis, we determined the date when an inspection of a maintenance
program was completed and then, using FAA’s guidance for prescribed time
intervals, we measured the time difference to the next time this same maintenance
program was inspected. FAA revised the ATOS program in 2004, which included
increased time intervals; therefore, we chose to begin our analysis of performance
assessment data starting with FY 2005. Finally, we surveyed all 63 airworthiness
inspectors from the 12 small inspection offices to obtain their personal
impressions of system safety and ATOS.




Exhibit A. Objecti ves, Scope, and Methodology
                                                                      27



EXHIBIT B. ACTIVITIES VISITED OR CONTACTED

FEDERAL AVIATION ADMINISTRATION

Headquarters:
   Aviation Safety (AVS)                           Washington, DC
   Flight Standards Service (AFS)                  Washington, DC

Regions*:
   Alaska Region                                   Anchorage, AK
   Central Region                                  Kansas City, MO
   Eastern Region                                  Jamaica, NY
   Great Lakes Region                              Des Plaines, IL
   Northwest Mountain Region                       Renton, WA
   Southern Region                                 College Park, GA
   Southwest Region                                Fort Worth, TX
   Western-Pacific Region                          Los Angeles, CA

Local Inspection Offices for:
   Aerodynamics                                    Belleville, MI
   Alaska Airlines                                 SeaTac, WA
   American Airlines                               Fort Worth, TX
   Chautauqua Airlines                             Plainfield, IN
   Continental Airlines                            Houston, TX
   Delta Air Lines                                 College Park, GA
   Executive Airlines                              Doral, FL
   Falcon Air                                      Doral, FL
   Gulfstream Airlines                             Doral, FL
   Lynx Aviation                                   Doral, FL
   Miami Air International                         Doral, FL
   Northwest Airlines                              Bloomington, MN
   Republic Airlines                               Plainfield, IN
   Seaborne Virgin Island                          Doral, FL
   Shuttle America                                 Plainfield, IN
   Southwest Airlines**                            Dallas, TX
   *Contacted only to obtain clarifying data
   **Did not visit; performed data analyses only



Exhibit B. Acti vities Visited or Contacted
                                                                  28




   Spirit Airlines                             Belleville, MI
   United Airlines                             Daly City, CA
   US Airways                                  Coraopolis, PA
   USA Jet Airlines                            Belleville, MI

Other FAA Offices:
   Seattle Aircraft Certification Office       Renton, WA


AIR CARRIERS*

   Republic Airlines                           Indianapolis, IN
   Shuttle America                             Indianapolis, IN
   *Contacted only to obtain clarifying data




Exhibit B. Acti vities Visited or Contacted
                                                        29



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                       Title

  Tina Nysted                Program Director

  Kevin George               Project Manager

  Anne Longtin               Senior Analyst-in-Charge

  Galen Steele               Senior Auditor

  Jeannette McDonald         Senior Analyst

  Sara Gragg                 Analyst

  Stefanie McCans            Senior Analyst

  Travis Wiley               Senior Analyst

  Andrea Nossaman            Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                         30



APPENDIX. AGENCY COMMENTS


                    Federal Aviation
                    Administration

Memorandum
Date:            October 20, 2010
To:              Jeffrey B. Guzzeti, Assistant Inspector General for Aviation and Special
                 Program Audits
From:            Clay Foushee, Director, Office Audit and Evaluation, AAE-1
Prepared by:     Anthony R. Williams, x79000
Subject:         OIG Report: FAA Needs to Improve Risk Assessment Processes for Its
                 Air Transportation Oversight System (ATOS)


The Air Transportation Oversight System (ATOS) is an ambitious attempt to utilize the
best available data sources to detect and predict safety trends, and use those trends as a
tool to prioritize risk areas that could benefit from increased surveillance. The FAA
recognizes that ATOS still has limitations, and as such, the system is subject to
continuous refinement to improve its capabilities. As a result of this continuous
improvement process, FAA has already addressed many of the issues identified in the
OIG draft report, which includes cases that date as far back as 1999. Since accurately
predicting risk factors is an imprecise science, ATOS is just one of a number of methods
the FAA uses to inform decisions about the allocation of aviation safety inspector
resources. Despite its limitations, ATOS provides useful information to help better focus
FAA’s safety inspection activities. As a result, the most critical inspections are now
being completed in a timely manner, and FAA is better able to identify and defer, low
risk inspections to better focus its inspection activities on the most critical safety
priorities.

The draft report’s acknowledgement that ATOS is conceptually sound is reassuring as
FAA continues to evolve its oversight systems to take full advantage of system safety
frameworks including the integration of other safety management systems. For example,
FAA is developing the Safety Assurance System (SAS), with system implementation
planned for 2013. SAS will employ enhanced analytic processes focused on hazard
identification, risk mitigation, and validation of risk control effectiveness as a result of
lessons learned during ATOS development and implementation. We anticipate that SAS
will further improve FAA’s analytic capabilities, enabling even more precise focus on the
most important safety priorities.

Appendix. Agency Comments
                                                                                                      31


Recommendations and Responses

OIG Recommendation 1: Redesign the Quarterly ADI [Assessment Determination and
Implementation] Completion report to include cumulative roll-up data from previous
quarters and conduct trend analyses that could be used to hold regional and local
inspection offices accountable for scheduling uncompleted inspections.
FAA Response: Partially concur. FAA has already taken action to ensure that
uncompleted inspections (design and performance assessments) are rescheduled when
justified by their relative risk. The agency modified the ATOS software in April 2010 to
employ a “ghost” icon that represents an assessment that did not have resources assigned
to it and, therefore, was not completed. The icon automatically appears in the calendar
quarter subsequent to the quarter in which the assessment was not completed.
Consequently, uncompleted assessments from a previous quarter will compete for
resources with assessments scheduled for the current quarter, and principal inspectors
have the opportunity to make priority adjustments based on the fact that an assessment
has been deferred.

Each calendar quarter, principal inspectors rank all of the ATOS assessments due in that
quarter according to their relative safety risk. This process provides an additional check
to ensure that managers assign inspectors to assessments with the highest risk and work
down the priority list until expending all resources. ATOS-generated inspections may be
deferred for other acceptable reasons. For example, if an air carrier is required to make
changes to its flight crewmember training program due to observed deficiencies, there is
no point in assessing the performance of the training program until the changes are
complete. Another example would be a principal inspector deferring an assessment so
something that has not been assessed for an extended period can receive attention, even
though it might have a lower ATOS risk value.

After years of experience with ATOS and because of inspector resource limitations, FAA
recognizes the importance of maintaining high standards for inspection quality, even if
that means it will not complete every ATOS-scheduled inspection. Principal inspectors
and their front-line managers are responsible for making decisions on the best use of
resources, using the best available data and knowledge. As described in FAA’s
September 2009 Report to Congress, 1 FAA depends on front line managers to make
resource allocation decisions to focus their limited resources as effectively as possible. It
is unwise to override local decisions on resource allocation based on national trend
analyses. Further, unexpected incidents and findings from surveillance activities will
always require priorities to shift and be redefined, and a strict adherence to ATOS-
defined schedules would not be in the best interests of aviation safety.

The Quarterly ADI Completion report, referenced in OIG’s recommendation, is used to
update a dashboard used by the Associate Administrator for Aviation Safety to track the
status of a variety of programs. The report is also sent to all Flight Standards (AFS)


1
 Please see FAA’s September 21, 2009, Report to Congress: Semi-Annual Overdue Safety Attribute and Element
Performance Inspections.

Appendix. Agency Comments
                                                                                                                      32


regional division managers. It is effective for its intended purpose, which is to hold
certificate-holding offices accountable for completing “assigned” inspections (those with
resources assigned to them) in accordance with the principles of a risk-based oversight
system, i.e., using available resources to accomplish the highest priority work.
Certificate management teams (CMT) are expected to complete assigned inspections in
accordance with ATOS policy. After we began tracking trends in accomplishing
assigned assessments in the 3rd quarter of 2008, 100 percent of them have been completed
on time. This was not the case before we began tracking them. The Quarterly ADI
Completion report also tracks “unassigned” assessments (those that did not have
resources assigned to them) at the regional level.

The utility of this OIG report finding could be enhanced if it offered greater emphasis on
assigned ATOS inspections rather than simply focusing upon all uncompleted ATOS-
scheduled inspections, as these inspections reflect higher priorities. Unassigned
assessments equate to the “uncompleted inspections” referenced in the OIG
recommendation. ATOS policy establishes how often inspectors conduct design and
performance assessments (baseline frequency). Inspectors must conduct design
assessments every 5 years. FAA considers a design assessment completed in the past 5
years as up-to-date. We intend to accomplish all design assessments as close as possible
to the baseline, 5-year interval. However, current ATOS policy permits design
assessments to be completed beyond their 5-year due dates if Principal Inspectors
document a risk-based rationale for doing so in ATOS automation.

 Similar criteria apply to performance assessments. Inspectors must conduct performance
assessments every 6 months, 1 year, or 3 years, depending on the criticality 2 of a failure
in the program element assessed. An assessment can be scheduled to be completed
before its baseline due date. When this occurs and the assessment is not completed, it
will be an “uncompleted inspection” by the criteria used in the OIG recommendation, but
it will not be overdue in relation to its baseline frequency. The agency prepares an ad hoc
report to track overdue assessments. In the future, we will produce this report each
calendar quarter and provide it to AFS regional division managers.

The intent of this recommendation is met. We request that it be closed.

OIG Recommendation 2: Develop procedures to document justification for significant
changes to ATOS (i.e., planned changes to alter the number of data collection tools or
prescribed inspection time intervals).
FAA Response: Concur. FAA has documented procedures for making significant
changes to ATOS as part of the agency’s ISO 9001-registered quality management
system (QMS), which was not considered as part of the OIG audit. These QMS
processes and work instructions are used when we make changes such as policy
revisions, automation changes, data collection tool revisions, and certification process
changes.


2
 The criticality of an air carrier operating system (e.g., deicing, fueling, flight crewmember training) is categorized as
high, medium, or low based on the likelihood that a failure in the system will result in an unsafe condition.

Appendix. Agency Comments
                                                                                         33


The most recent changes to the data collection tools (DCT) were made by AFS subject
matter experts, who followed a process approved and overseen by management. These
changes to the DCTs eliminated redundant questions and combined several elements so
that ATOS procedures and tools would be more efficient and easier to use by small
CMTs. If a future safety-mandated, significant change becomes necessary, we will
follow our QMS processes and document the justification for the change.

The intent of this recommendation is met. We request that it be closed.

OIG Recommendation 3: Redesign the current risk assessment process within ATOS
so that it appropriately prioritizes maintenance programs with the greatest percentage of
increased risk (regardless of criticality level) for inspector resources.
FAA Response: Partially concur. FAA agrees that the ATOS methodology for
prioritizing risk could benefit from further improvement and is being continually refined
as a result of our experience with the system, and with ever-changing risk profiles within
the industry. Earlier versions of ATOS used an algorithm that calculated percentage of
increased risk to trigger an increased level of criticality for an inspection element.
However, this does not necessarily equate to significantly increased safety criticality
because the element may be a low priority item in which failure would have limited
consequences. The criticality of an ATOS element should be determined by the
likelihood that a failure in the system represented by the element could lead to a
significantly unsafe condition or failure. In other words, critical items are those in which
failure would more likely lead to an incident or accident. FAA has developed and
implemented such methodology.

FAA also recently convened a panel of subject matter experts to study ways to improve
the Air Carrier Assessment Tool (ACAT), including several alternatives that would allow
for lower-criticality elements to compete more successfully for resources. Given the
planned future enhanced system assessment tools (SAS), the cost of re-engineering the
ATOS software to accommodate these changes is not warranted; however, this will be
addressed in SAS.

As noted above, a process has been implemented that allows principal inspectors to adjust
inspection priorities in the current ATOS system. This process allows principal
inspectors to adjust ATOS assessment priorities if there are overriding factors such as
significant changes in risk indicators or an extended time since the last assessment. FAA
Order 8900.1, Flight Standards Information Management System, volume 10, chapter 2,
includes examples of why a principal inspector may adjust the priority of an assessment.
Examples include:

   •   Results of a bottom-line assessment for that element.
   •   Status of the element in relation to the 6-month, 1-year, 3-year performance
       assessment review cycle, or the 5-year design assessment cycle.
   •   Any increase or decrease in the risk score over time.



Appendix. Agency Comments
                                                                                        34


   •   Assignment of assessment completion dates based on the highest risk.
   •   New elements that are added as a result of major changes to air carrier operations.
   •   Work that was unassigned in the previous planning cycle that may have a higher
       priority level for the current planning cycle.

We believe these procedures enable principal inspectors to adjust assessment priorities as
intended by OIG’s recommendation. Consequently, the intent of this recommendation is
met, and we request that it be closed.
OIG Recommendation 4: Provide training to inspectors to help them more accurately
interpret data from all available sources (i.e., self-disclosure data, ATOS Data Packages,
events occurring in the aviation industry) and apply the results more consistently when
planning risk assessments.
FAA Response: Concur. FAA has deployed two new courses for ATOS aviation safety
inspectors (ASI), principal inspectors, and managers. They are FAA course 21000051,
ATOS 1.2 Interactive Training for Aviation Safety Inspectors; and FAA course
21000052, ATOS 1.2 Interactive Training for Principal Inspectors and Managers. Both
courses underwent a major update this summer (2010). The revised course curriculum
for course 21000052 for principal inspectors and managers provides in-depth coverage of
the risk assessment process using ACAT risk indicators and demonstrates how they can
be affected by reports available in the Safety Performance Analysis System, including the
ATOS data packages referenced in the OIG recommendation. The course also
emphasizes using operational research analysts to assist in the interpretation of data and
adjustment of risk scores. This course is required for all newly assigned principal
inspectors and managers. By December 31, 2010, we will complete a review of this
revised course to determine if additional enhancements would be useful.
OIG Recommendation 5: Evaluate ATOS to determine if it is designed to accurately
record inspection findings unique to smaller air carrier operations.

FAA Response: Partially concur. The examples of CMTs having difficulty using ATOS
DCTs seem to be unique—in one case a seaplane operator and in the other a service
provider to sports franchise customers. Redesigning ATOS software to make changes to
the data recording process would be very expensive and is not justified for a few
relatively unique operations.

FAA’s recent revision to the DCTs, completed in July 2010, was largely in response to
inspector input gathered during extensive listening sessions with small, medium, and
large CMTs. The modifications combined elements, eliminated redundancies, clarified
questions, and applied plain language to make it easier to answer DCT questions and
record results. Inspectors now have the option of entering comments for “yes” answers
to DCT questions as well as to “no” answers. These revisions, completed in large part
after the timeframe of OIG’s audit, address most of the concerns of smaller CMTs.
These actions are responsive to the intent of this recommendation, and FAA requests that
it be closed.



Appendix. Agency Comments
                                                                                           35


OIG Recommendation 6: Evaluate whether ATOS is scalable across all Part 121 air
carriers.

FAA Response: Concur. FAA has completed the recommended evaluation based on our
responses to recommendations 1 and 5, and is confident that ATOS is as scalable as is
feasible given ATOS' remaining life span. Scalability is a major design requirement for
the AFS SAS. Significant attention and resources are being devoted to ensuring the AFS
SAS can be effectively used by small and large CMTs. Extensive documentation of the
AFS SAS design requirements is available for the OIG's review. Consequently, we
believe we have met the intent of this recommendation, and we will enhance the
scalability of our oversight system when SAS is deployed in 2013. We request that this
recommendation be closed.
OIG Recommendation 7: Expedite enhancement of ATOS training methods (as
identified in its 2008 internal report) to assist inspectors in understanding how to use
ATOS data collection tools and increase their proficiency in using ATOS.

FAA Response: Concur. Two new courses were developed for ATOS aviation safety
inspectors (ASI), principal inspectors, and managers. They are FAA course 21000051,
ATOS 1.2 Interactive Training for Aviation Safety Inspectors; and FAA course
21000052, ATOS 1.2 Interactive Training for Principal Inspectors and Managers. These
courses incorporate recommendations from the 2008 internal report. Both courses
underwent a major update this summer (2010).

The walk-through and operational try-out of revised course 21000051 were completed on
August 27 and September 18, 2010, respectively. The course prototype is scheduled for
October 8 through 14. Course 21000051 for ASIs includes training on understanding and
use of DCTs as OIG recommends. All newly hired ASIs are required to complete this
course. The course focuses on ATOS functions that are essential for job performance,
including data collection and reporting. The course curriculum is available for the OIG’s
review.

The prototype of revised course 21000052 was completed on July 29, 2010. Two classes
of the revised course for principal inspectors and managers have been taught since then.

All of the recommendations of the 2008 internal report are closed either by incorporating
them into ATOS training and processes or referring them to the Systems Approach to
Safety Oversight Program Office for inclusion in the AFS SAS. A copy of the 2008
report and its disposition is available for the OIG’s review. Consequently, we request
that this recommendation be closed.




Appendix. Agency Comments
